No. 19-357

Supreme Court of the United States
City of Chicago, Illinois,
Petitioner,
v.
Robbin L. Fulton, George Peake, and Timothy Shannon,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that I am a member of the Bar
of this Court representing a party on whose behalf service is made, and I served three
copies of the Brief of the American Civil Liberties Union, the American
Civil Liberties Union of Illinois, the Cato Institute, the Fines and Fees
Justice Center, the Institute for Justice, the R Street Institute, and
the Rutherford Institute as Amici Curiae in Support of Respondents
in the above-identified case, upon all parties required to be served, on March 11, 2020.
Service was performed by U.S. priority mail to counsel of record listed on the following
page. While a corrected copy of the brief was filed with this Court on March 18, 2020, the
changes to the brief were non-substantive and minimal, so the listed counsel have been
informed of the nature of the corrections, and further copies have not been served.
Respectfully submitted,
Dated: March 18, 2020
Nusrat J. Choudhury
Roger Baldwin Foundation of the
ACLU of Illinois
150 N. Michigan Ave., Suite 600
Chicago, IL 60602
(312) 201-9740
nchoudhury@aclu-il.org
Counsel for Amici Curiae

LIST OF PARTIES SERVED
Craig Goldblatt
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006
202-663-6000
craig.goldblatt@wilmerhale.com
Counsel for Petitioner City of Chicago
Eugene R. Wedoff
144 N. Elmwood Avenue
Oak Park, IL 60302
312-285-5849
erwedoff@me.com
Counsel for Respondents Robbin L. Fulton, George Peake, and Timothy Shannon

